                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM'

 Case Number: I05080031                                                                   P a g ~1 of 1



         OIG opened this investigation based on a proactive review of grants awarded under the "U.S.-
         Egypt Joint Fund Program" involving substantial foreign travel or participant support costs. The
         purpose of the review was to ensure compliance with the applicable laws, regulations, and award
         conditions.

         The grantee1was selected and asked to provide financial information and supporting
         documentation related to an NSF award.2 The grantee submitted records and documentation as
         requested and a review noted various expenses charged to the grant fund for which no receipts
         were provided.

         The grantee submitted receipts for some of the questioned costs and an explanation for the
         remaining costs found to be in error or missing receipts. Documentation was provided which
         supported           of the              n questioned costs. The refund amount to NSF thbs
         totaled $       and was rehnded via submission of a Federal Cash Transactions Report
         Adjustment.

          The grantee has now properly accounted for all grant expenditures, has complied with the award
          conditions, and has refunded NSF for errors made. All issues have been resolved.

         Accordingly, this case is closed.




                                                                                                 /I

NSF OIG Form 2 (1 1/02)
